<html>
<title> - S. 529, TO AUTHORIZE APPROPRIATIONS FOR THE U.S. ANTI-DOPING AGENCY</title>
<body><pre>[Senate Hearing 109-212]
[From the U.S. Government Printing Office]



                                                     S. Hrg. 109-212
 
  S. 529, TO AUTHORIZE APPROPRIATIONS FOR THE U.S. ANTI-DOPING AGENCY

=======================================================================



                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 24, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                 U.S. GOVERNMENT PRINTING OFFICE

24-722                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMint, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 24, 2005.....................................     1
Statement of Senator McCain......................................     1
Statement of Senator Stevens.....................................     2

                               Witnesses

Blake, Roger, Assistant Executive Director, California 
  Interscholastic 
  Federation.....................................................    15
    Prepared statement...........................................    16
Catlin, Don H., M.D., Professor of Molecular and Medical 
  Pharmacology, UCLA Medical School..............................    18
    Prepared statement...........................................    20
Madden, Terry, CEO, U.S. Anti-Doping Agency (USADA)..............     7
    Prepared statement...........................................     9
Scherr, Jim, Chief Executive Officer, U.S. Olympic Committee.....     3
    Prepared statement...........................................     5
White, Kelli, Former U.S. Athlete................................    10
    Prepared statement...........................................    13


  S. 529, TO AUTHORIZE APPROPRIATIONS FOR THE U.S. ANTI-DOPING AGENCY

                              ----------                              


                         TUESDAY, MAY 24, 2005

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John McCain, 
presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Good morning. I want to thank Chairman 
Stevens for calling this hearing and for extending the courtesy 
of the gavel to me this morning, and I appreciate it very much. 
I would also like to thank the witnesses for being here to 
discuss the authorization of the United States Anti-Doping 
Agency, known as USADA, and the sports doping challenges our 
country faces.
    For 5 years USADA has served as the official anti-doping 
agency for Olympic sports in the United States. In that role 
USADA has shown a tremendous dedication to eliminating doping 
in sports through research, education, testing, and 
adjudication efforts. Most recently, USADA was instrumental in 
the identification and adjudication of several Olympic athletes 
implicated in the ongoing BALCO scandal. With the assistance of 
documents subpoenaed by this Committee and released last year 
to the agency by the unanimous consent of the Senate, USADA 
helped ensure that the Olympic team the U.S. sent to the Athens 
Olympics last summer was as clean as it could be.
    Despite USADA's successes, the fact remains that we may be 
falling behind in what is truly an arms race of doping. As soon 
as a new doping substance is discovered, it seems that we know 
that there is a new and undetectable substance that is being 
used by athletes. I look forward to the witnesses' testimony on 
USADA's and others' efforts to keep up with doping innovations.
    In addition, I would appreciate the views of the witnesses 
on the performance of USADA to date, as well as its role in the 
ongoing effort to take doping out of sports. For example, I 
would appreciate hearing whether USADA could help clean up 
professional sports, which have been a major focus because of 
the influence that professional athletes, like Olympic 
athletes, have on our Nation's youth.
    Ultimately, the anti-doping effort is one that I endorse 
because I want to protect our youngest generations from the 
dangers of steroids and other substances that may unfairly 
enhance performance and that take a serious toll on the health 
and safety of America's kids.
    I want to thank Senator Stevens again for calling this 
hearing and I thank the witnesses. I would also like to take 
this opportunity to thank Senator Stevens for his efforts in 
the coordination between the Greek Government and the U.S. 
Government in ensuring a successful Olympics in Athens, thanks 
in large part to the coordination of security forces of the 
United States and Greece.
    I thank you, Senator Stevens.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Thank you very much, Senator McCain. I too 
welcome the witnesses, who traveled great distances to be here 
today. I want to thank you, Senator McCain, for chairing this 
hearing and for your continued commitment to the U.S. Olympic 
movement and to drug-free sports in general.
    The actions we took as a Committee last year ensured that 
the United States did not send athletes who were not drug-free 
to Athens. Those were unprecedented actions and I thank the 
U.S. Olympic Committee and the people who are here, for this 
unprecedented action.
    As someone who worked for the creation of the U.S. Olympic 
Committee and who has been involved now with Olympic issues in 
the Senate for almost 37 years, I reflect back with great pride 
on the tremendous accomplishments of our U.S. Olympic teams. I 
have grown increasingly concerned about the dramatic increase 
in doping at all levels of athletics, particularly among our 
youth. Several years ago I traveled with Donna DeVerona to 
Geneva to meet with the International Olympic Committee to 
express our great concern over doping.
    In 2003, in a survey of over 15,000 high school students, 
the U.S. Center for Disease Control found that more than 6 
percent of high school students admitted using non-prescription 
illegal steroids at some point in their lives. To me that is 
unacceptable. Doping is a stain at all levels of athletes that 
taints the accomplishments of our elite athletes, creates 
unattainable expectations for our young athletes, and threatens 
their physical well-being.
    I do commend the work of the U.S. Anti-Doping Agency. It is 
doing great work on behalf of the U.S. Olympic Committee and 
much more remains to be done. But I do look forward to working 
with you, Senator McCain, and the rest of the Committee to 
carry out your commitment, all of our commitment, to mitigate 
the problem of doping.
    I have another committee meeting this morning, so I hope 
you will excuse me. Thank you all very much.
    Senator McCain. Thank you very much, Mr. Chairman. I 
appreciate your continued involvement.
    Our panel this morning is: Mr. Jim Scherr, who is the Chief 
Executive Officer of the U.S. Olympic Committee; Mr. Terrence 
Madden, Chief Executive Officer of USADA; Ms. Kelli White, 
former U.S. Olympic athlete; Mr. Roger Blake, Assistant 
Executive Director of the California Interscholastic 
Federation; and Mr. Don Catlin, Professor of Molecular and 
Medical Pharmacology at the UCLA Medical School.
    Welcome. We will begin with you, Mr. Scherr, and move down 
the line. It is good to see you again and thanks for being 
here.

STATEMENT OF JIM SCHERR, CHIEF EXECUTIVE OFFICER, U.S. OLYMPIC 
                           COMMITTEE

    Mr. Scherr. Thank you. Good morning, Mr. Chairman. My name, 
as you know, is Jim Scherr and I am the Chief Executive Officer 
of the United States Olympic Committee. I am here representing 
the USOC and its entire board of directors. Our Chair, Peter 
Ueberroth, is currently in Europe. He has been meeting with the 
organization committee in China and the IOC. Otherwise he would 
have been more than happy to be here himself.
    On their behalf, I am presenting testimony in support of 
the authorization for the United States Anti-Doping Agency, 
known by the acronym ``USADA,'' an independent entity that the 
USADA as well as this Committee had a hand in creating back in 
2000 to lead the fight against doping in Olympic sport. Quite 
simply, in the opinion of the USOC, USADA is doing the job it 
was created to perform and in doing so has become the model 
national anti-doping agency and organization for the world. It 
can do more and should do more, but perhaps it should become a 
resource for performance and college sports as well. For it to 
do more, USADA would require additional resources from sources 
other than the USOC, yet to be determined.
    But before considering the future, let me briefly summarize 
how the USOC and the Senate Commerce Committee brought USADA to 
this point. On October 20, 1999, against the backdrop of 
increasing public and media attention to the issue of 
performance-enhancing drug use in sports, this Committee 
conducted a hearing at which a number of experts, athletes, 
academicians, and interested parties testified. Among the 
witnesses were representatives of the USOC. In their testimony 
and subsequent exchanges with Committee members, they described 
the existing drug testing program for U.S. Olympic and 
Paralympic athletes, noting that, with the exception of actual 
Olympic and Paralympic competition and some world-level 
competitions, the USOC was responsible for testing its 
athletes. They observed that this practice would appear to 
represent a conflict because the USOC is charged with the 
responsibility of fielding a team whose objective is to win 
medals and one might not have the greatest confidence that this 
same organization would penalize a potential medal winner for a 
drug infraction.
    In addition, these athletes and their public personas 
dictate in large part our television revenues and marketing 
revenues. In addition but more important, with the development 
of so-called ``designer drugs'' that avoided detection by 
standard analytical means, it became apparent that a more 
professional and sophisticated process for testing would have 
to be developed and an organization created to conduct a 
comprehensive ongoing program that would ensure that America's 
Olympic and Paralympic athletes would be clean and competing on 
a level playing field.
    Describing the findings of the USOC task force that had 
been formed to address this issue, key recommendations were 
outlined, which included the creation of an external, 
independent, transparent organization that would conduct a 
comprehensive anti-doping program on behalf of the U.S. Olympic 
Committee. Its responsibilities would include testing, 
adjudication, education, and research, and it would operate 
with a professional staff under the oversight of a board of 
directors drawing from the sports, medical, and at-large 
community--I might add, an independent board of directors.
    Initial funding would come from the USOC, with the 
expectation that for this entity to do the job expected of it 
by the USOC and this Committee funding would have to come from 
other sources, primarily the Federal Government.
    This proposal, thankfully, was well received by this 
Committee and partially on that basis, and with its implicit 
support, this independent drug agency, soon to be named USADA, 
was launched, taking complete responsibility for the testing of 
U.S. Olympic and Paralympic athletes, on October 1, 2000. With 
initial funding provided jointly by the USOC and the Federal 
Government, during its first 15 months USADA conducted nearly 
7,000 in-competition athlete drug tests and approximately 3,700 
unannounced out of competition tests of American athletes.
    This was and is a remarkable accomplishment during what was 
essentially a startup period for a new organization that had to 
establish procedures, develop protocols, and attend to the most 
basic tasks, such as securing office space and building a staff 
that could attend to the many mechanical and administrative 
details required to operate in the manner expected of it by the 
USOC and by Congress.
    Since that time, USADA has expanded its scope of activity, 
increased its aggressiveness, and greatly improved its overall 
effectiveness of operation, earning widespread respect both 
domestically and internationally. In doing so, it has largely 
dispelled what was previously a widespread international 
impression that some American athletes were drug cheaters with 
their behavior condoned by their respective sports federations.
    This hearing today, as well as ones conducted recently by 
other Congressional Committees on the issue of doping in 
professional sports, suggests that Congressional leaders 
believe that the Federal Government has a role to play in 
addressing the issue of drug use in sports at all levels. We 
also think that it does. The reality is that, while 
professional as well as college and Olympic sports are private 
activities, the actions of the athletes are in the public arena 
and have far-reaching social and health consequences. We are in 
agreement that performance-enhancing drug use has become a 
national issue that must be attacked at the Federal level, with 
the Federal Government serving as a major participant and 
bringing with it the necessary financial resources to do the 
job.
    During the recent hearings on drug testing programs in 
professional sports, it was suggested that perhaps USADA should 
be expanded to perform the same function for the professional 
leagues and perhaps the NCAA that it does for the American 
Olympic movement. Without addressing the legal, structural, and 
logistical challenge, as well as complicated collective 
bargaining agreements and other concerns, we believe that that 
proposal warrants serious consideration.
    Our experience with USADA has been positive and has freed 
us up to devote more attention and financial resources to the 
development and support of American Olympic and Paralympic 
athletes, and it has brought credibility, much needed 
credibility, to our efforts to combat doping in sport as we 
have led by example. We would expect that other sports bodies 
would experience similar benefits and therefore we believe they 
would welcome externalization of the whole drug testing program 
and adjudication process, as we have done.
    But regardless of whether USADA becomes the entity for use 
by professional and other sports leagues, because the USOC is 
reaching the limits of its ability to increase our funding to 
USADA, USADA should receive all the support possible from the 
Federal Government so that it can continue its aggressive 
program that has been so effective in eliminating drug use in 
Olympic and Paralympic sport and to expand its research 
activities that are so important in staying ahead of those who 
are constantly trying to develop substances intended to defy 
detection.
    We thank you for the opportunity to speak on behalf of 
USADA today and for the ongoing support and partnership of this 
Committee in our joint effort to address this very important 
issue. We think the fruit of this partnership, USADA, has more 
than fulfilled our early expectations when we first discussed 
this concept nearly 6 years ago and believe that with increased 
Federal support it will become an even more effective weapon to 
be used to eradicate this growing national problem.
    I would also conclude with again thanking you and Senator 
Stevens for the very important support that we received to 
field a team at Athens and the support that the Athens 
organizing committee received from our government to support 
their Olympic games and for the successful performance of the 
U.S. team.
    Thank you.
    [The prepared statement of Mr. Scherr follows:]

      Prepared Statement of Jim Scherr, Chief Executive Officer, 
                         U.S. Olympic Committee
    Good morning Mr. Chairman and Members of the Committee. My name is 
Jim Scherr and I am the Chief Executive Officer of the United States 
Olympic Committee. I am here representing the USOC and its entire Board 
of Directors, whose Chairman, Peter Ueberroth, is currently in Europe. 
On their behalf I am presenting testimony in support of an 
authorization for the United States Anti-Doping Agency, known by the 
acronym ``USADA,'' an independent entity that the USOC as well as this 
Committee had a hand in creating back in 2000 to lead the fight against 
doping in Olympic Sport.
    Quite simply, in the opinion of the USOC, USADA is doing the job it 
was created to perform, and in so doing, has become the model national 
anti-doping organization for the world. It can and should do more, and 
perhaps it should become a resource for professional and college sports 
as well, but for it to do more USADA will require additional resources 
from sources other than the USOC yet to be determined.
    But before considering the future let me briefly summarize how the 
USOC and the Senate Commerce Committee brought USADA to this point.
    On October 20, 1999, against the backdrop of increasing public and 
media attention to the issue of performance-enhancing drug use in 
sports, this Committee conducted a hearing at which a number of 
experts, athletes, academicians and interested parties testified. Among 
the witnesses were representatives of the United States Olympic 
Committee. In their testimony and subsequent exchanges with Committee 
Members, they described the existing drug testing program for U.S. 
Olympic and Paralympic athletes, noting that with the exception of 
actual Olympic and Paralympic competition, the USOC was responsible for 
testing its athletes. They observed that this practice would appear to 
represent a conflict because the USOC is charged with the 
responsibility of fielding a team whose objective is to win medals, and 
one might not have the greatest confidence that this same organization 
would penalize a potential medal-winner for a drug infraction. But more 
important, with the development of so-called ``designer drugs'' that 
avoided detection by standard analytical means it became apparent that 
a more professional and sophisticated process for testing would have to 
be developed and an organization created to conduct a comprehensive 
ongoing program that would ensure that America's Olympic and Paralympic 
athletes would be competing on a level playing field.
    Describing the findings of a USOC task force that had been formed 
to address this issue, key recommendations were outlined which included 
the creation of an external, independent, transparent organization that 
would conduct a comprehensive anti-doping program on behalf of the 
USOC. Its responsibilities would include testing, adjudication, 
education, and research, and would operate with a professional staff 
under the oversight of a board of directors drawn from the sports, 
medical, and at-large community. Initial funding would come from the 
USOC, with the expectation that for this entity to do the job expected 
of it by the USOC and this Committee, funding would have to come from 
other sources, primarily the Federal Government.
    The proposal was well-received by the Committee, and partially on 
that basis and with its implicit support, this independent drug agency, 
soon to be named USADA, was launched, taking complete responsibility 
for the testing of U.S. Olympic and Paralympic athletes on October 1, 
2000. With initial funding provided jointly by the USOC and the Federal 
Government, during its first fifteen months USADA conducted nearly 
7,000 in-competition athlete drug tests and approximately 3,700 
unannounced, out-of-competition tests of American athletes. This was a 
remarkable accomplishment during what was essentially a start-up period 
for a new organization that had to establish procedures, develop 
protocols, and attend to the most basic tasks such as securing office 
space and building a support staff that could attend to the myriad 
mechanical and administrative details required to operate in the manner 
expected of it by the USOC and by Congress.
    Since that time USADA has expanded its scope of activity, increased 
its aggressiveness, and greatly improved its overall effectiveness of 
operation, earning widespread respect both domestically and 
internationally. In so doing it has largely dispelled what was 
previously a widespread international impression that some American 
Olympic athletes were drug cheaters, with their behavior condoned by 
their respective sports federations.
    This hearing today as well as ones conducted recently by other 
Congressional Committees on the issue of doping in professional sports 
suggests that Congressional leaders believe that the Federal Government 
has a role to play in addressing the issue of drug use in sports at all 
levels. We also think that it does. The reality is that while 
professional as well as college and Olympic sports are private 
activities, the actions of the athletes are in the public arena, and 
have far-reaching social and health consequences. We are in agreement 
that performance-enhancing drug use has become a national issue that 
must be attacked at the federal level, with the Federal Government 
serving as a major participant, and bringing with it the financial 
resources to do the job.
    During the recent hearings on drug testing programs in professional 
sports it was suggested that perhaps USADA should be expanded to 
perform the same function for the professional leagues and perhaps the 
NCAA that it does for the American Olympic Movement. Without addressing 
the legal, structural, and logistical challenges as well as complicated 
collective bargaining and other concerns, we believe that the proposal 
warrants serious consideration. Our experience with USADA has been 
positive and has freed us up to devote more attention and financial 
resources to the development and support of American Olympic and 
Paralympic athletes, and it has brought credibility to our efforts to 
combat doping in sport as we have led by example. We would expect that 
other sports bodies would experience similar benefits and, therefore, 
they would welcome externalizing the whole drug testing and 
adjudication processes as we have done.
    But regardless of whether USADA becomes the entity for use by 
professional and other sports leagues, because the USOC is reaching the 
limits of its ability to increase its funding of USADA, USADA should 
receive all the support possible from the Federal Government so that it 
can continue its aggressive program that has been so effective in 
eliminating drug use in Olympic and Paralympic sport, and to expand its 
research activities that are so important in staying ahead of those who 
are constantly trying to develop substances intended to defy detection.
    We thank you for the opportunity to speak in support of USADA today 
and for the ongoing support and partnership of this Committee in our 
joint effort to address this important issue. We think that the fruit 
of this partnership--USADA--has more than fulfilled our early 
expectations when we first discussed the concept nearly 6 years ago, 
and believe that with increased federal support it will become an even 
more effective weapon to be used to eradicate this growing national 
problem.

    Senator McCain. Thank you and congratulations.
    Mr. Madden, welcome back.

STATEMENT OF TERRY MADDEN, CEO, U.S. ANTI-DOPING AGENCY (USADA)

    Mr. Madden. Thank you, Senator. I appreciate it. Since this 
is my fourth appearance before this Committee and the eighth 
appearance by USADA before some committee on Capitol Hill, I am 
going to set aside my testimony and ask you to admit it into 
the record and just talk for a few moments directly with you.
    Senator McCain. Without objection.
    Mr. Madden. When I accepted this position 5 years ago as 
CEO of USADA, I made a few international trips abroad. We 
wanted to steal the best ideas from other international drug 
testing agencies. In my travels I quickly learned that the 
international community, sporting community, viewed the United 
States athletes, both professional and amateur, at any level as 
the biggest cheaters in the world. In fact, some people wanted 
to equate us with the East German system.
    I did not believe that for a minute then and I do not now. 
I think the large majority of our athletes are attempting to 
compete clean. They want to do it the right way. But it pointed 
up the fundamental reason why USADA was created and that was 
that the testing had to be externalized from the USOC, an 
independent agency had to be created, and the prosecution of 
athletes who had tested positive needed to be removed from the 
sporting federations, the national governing bodies of sport in 
this country.
    So USADA was created in 2000. We were given four mandates: 
testing, adjudication, research, and education. Our bywords are 
independence and transparency. By ``transparency'' I mean we 
announce everything. Once the athlete has either admitted to 
the drug testing positive or has gone through our protocols and 
procedures and the hearing process, we announce it. Nothing is 
covered up any more. There can be no more of those accusations 
against United States athletes.
    In the area of testing, that first year we did 4,000 tests. 
This past year in 2004, we did about 8,150 tests, of which 
about 58 percent were out of competition tests. As you know, 
that is where we go and test at their home or at their place of 
work or at their training site. We are most proud of our out of 
competition testing program because it is totally no-notice and 
it is a year-round program.
    As Jim stated, most of our funding now comes from the 
Federal Government. Sixty-five percent comes from the Federal 
Government and 35 percent from the United States Olympic 
Committee.
    Getting to the basic facts here, though, sport has become 
ingrained in our culture. It is part of our fabric, part of our 
everyday life. Your children and grandchildren, my children, 
everybody's children in this room, are participating in sport 
at some level, whether it is stickball in the New York City 
streets or a highly organized track and field meet at the high 
school or collegiate level in California. It has become an 
important part of our existence, an important part of American 
lives.
    Performance-enhancing drugs, though, have become a 
significant issue within sport at every level. This junk or 
crap, whatever you want to refer to it, is seeping down through 
the professional ranks, to the collegiate level, to the high 
school level. Unfortunately, now we are finding it in the 
middle schools and the grade school level.
    The latest survey I saw out last week, one that is rather 
surprising and will address both issues that I want to bring 
here today, is that 7 percent of middle school and pre-high 
school girls are now taking performance-enhancing drugs, not 
necessarily to compete as athletes, but to get the buff look 
and look well among their friends.
    What I am leading up to here is this Nation is facing not 
only a crisis in sport by the use of performance-enhancing 
drugs, but we are facing a health crisis. Dr. Catlin can go 
into all the effects of steroids, and they are numerous, both 
in men and women, and especially our children. But this stuff 
is now seeping down into the grade school level and we, the 
Congress, USADA, all sporting organizations, need to address 
this as a health issue as well as a competitive issue.
    Make no mistake about it. Taking performance-enhancing 
substances to compete in athletics is cheating. You are a drug 
cheat when you do that. There is no other way around it. And 
you are also harming your personal health.
    I just want to say, so many times the rights of the accused 
are addressed, and the rights of the accused in the USADA 
system are addressed by us. They have all the rights based upon 
the United States Constitution and our judicial system. But the 
rights of clean athletes are too long, too often ignored or not 
mentioned in the media. Those are the rights we have to be 
concerned with. Those are the rights that USADA wants to 
address, the rights of clean athletes.
    I will tell you, I bet if a poll is taken, a private poll 
of professional athletes, amateur athletes, athletes at the 
high school level, whatever level you want to address, I will 
assure you that those athletes when they get in the starting 
blocks, when they are at bat, when they are in the swimming 
lane, whatever it is, they want to know that they are competing 
on a level playing field. They want to know that all the other 
people, all the other participants in that event, are clean.
    Those are the rights of the clean athletes. Those are the 
rights that need to be addressed, whether in competing on a 
professional or amateur level. Those are the rights we are 
concerned with.
    I want to just bring up the BALCO situation for a minute. 
USADA has addressed 15 cases so far. One of those includes 
Duane Chambers, the British athlete who received a 2-year 
suspension for THG. We have 2 more cases on line to come up in 
June and July involving Tim Montgomery and Christie Gaines. 
USADA has won all 13 cases. These cases--we are thankful for 
the documents this Committee involved--excuse me--this 
Committee delivered to us.
    I will say to you now, once we saw the indictments for the 
criminal defendants in BALCO last February, we requested from 
the U.S. Attorney those documents. As you know, the Privacy Act 
they believe precluded them from delivering those documents. 
You, as your Committee of jurisdiction over the Olympic 
movement, asked, subpoenaed those documents from the Department 
of Justice. After a thorough review by your staff and the 
Senators--and I want to bring up Senator Hollings here as 
well--by unanimous consent it was passed and those over 9,000 
documents were delivered to USADA.
    They have been used in prosecutions to date. They will be 
used in further prosecutions. I will tell you I do not think we 
have seen the end of BALCO, nor will it end very soon.
    Thank you very much.
    [The prepared statement of Mr. Madden follows:]

   Prepared Statement of Terry Madden, CEO, U.S. Anti-Doping Agency 
                                (USADA)
    Mr. Chairman, Members of the Committee, good morning. My name is 
Terry Madden and I am the CEO of the United States Anti-Doping Agency 
(USADA). I want to thank this Committee for its long-standing interest 
in clean sport and for the opportunity to testify this morning.
    USADA has been recognized by Congress as the independent, national 
anti-doping agency for Olympic and Paralympic sport in the United 
States. Our mission is to protect and preserve the health of athletes, 
the integrity of competition, and the well-being of sport through the 
elimination of doping. Since it began operations on October 1, 2000, 
USADA has been responsible for managing the testing and adjudication 
process for Olympic and Paralympic athletes. USADA is also deeply 
committed to education and research initiatives, which are fundamental 
to our efforts to end doping in sports.
    USADA welcomes the increased attention that has recently been 
focused on the use of performance-enhancing drugs in sport. In this age 
of dramatically increased awards for athletic success, doping has, 
unfortunately, become an issue that affects every sport and threatens 
to undermine the integrity of athletics as a whole. The true victims of 
doping are today's clean athletes who want to compete in clean sport, 
the young athletes of tomorrow who are being deceived into believing 
that doping is an acceptable path to winning and the public who is 
being defrauded by athletic performances that are dependent on the use 
of drugs.
    Since its inception in 2000, USADA has worked hard to protect the 
rights of the overwhelming majority of the United States Olympic 
movement athletes who compete clean, by instituting policies that 
ensure that athletes who choose to cheat will be held accountable.
    The USADA anti-doping program, which was developed with the 
assistance and approval of athletes in the Olympic movement, begins 
with a comprehensive sample collection plan that includes appropriately 
timed, year-round, no-advance-notice testing. A drug testing program 
will be ineffective if athletes know during what times of the year they 
will be tested. In 2004 USADA collected 7,630 samples from Olympic 
movement athletes. Over 4,400 of those samples were collected as part 
of USADA's out-of-competition testing program.
    One lesson reinforced by the ongoing BALCO investigation, is that 
to be effective, an anti-doping program must incorporate sufficient 
flexibility to deal with the creation and use of ``designer drugs.'' 
Accordingly, USADA's program is also based on a regularly updated, 
comprehensive list of prohibited substances and methods.
    An effective program must also combine clearly defined sanctions of 
sufficient magnitude to deter drug use with a fair means of imposing 
such sanctions. In the Olympic movement the sanction for a first 
steroid offense is a 2-year suspension. A second steroid offense 
results in a lifetime ban. Accordingly, USADA's adjudication system 
includes numerous protections for athletes to ensure that only athletes 
who commit a doping violation are sanctioned. Significantly, while 
USADA believes the privacy rights of individuals accused of doping must 
be respected, no individual's privacy right should outweigh the rights 
of all athletes to compete in clean sport and to be assured that those 
who break the rules are appropriately sanctioned. For these reasons, in 
the USADA system, once an athlete has been found to have committed a 
violation there is complete public disclosure of the athlete's name and 
the nature of the offense.
    Another important focus of USADA's program is the education of 
athletes regarding the health risks associated with doping and the 
inherent value that is found in choosing to compete clean. To date more 
than 10,000 elite athletes and coaches have participated in education 
presentations by USADA. The 100% Me program, targeting adolescent youth 
will soon be expanded to focus on high school age youth. Also, USADA's 
goal is to expand ``Crossroads'', the 5th grade in-school curriculum 
which was developed with Scholastic Magazine. It is critical that both 
the elite athletes of today and the aspiring athletes of tomorrow learn 
that there are no shortcuts to true athletic achievement and that 
success through doping is winning without honor.
    Finally, USADA dedicates significant resources to research for the 
detection of new doping substances and techniques and the pursuit of 
scientific excellence in doping control. USADA is also strongly 
committed to funding continued research regarding the long term health 
risks associated with the use of prohibited substances. USADA's ongoing 
commitment to research is demonstrated through the approximately 2 
million dollars per year in grants that USADA awards to fund research 
initiatives aimed at fighting doping in sport. To date, USADA has 
awarded approximately $1,250,000 for the development of a 
scientifically reliable test for human growth hormone, a substance 
being used by dopers.
    We believe that the USADA program contains all of the important 
elements of a comprehensive and effective drug deterrence program and 
we continue to work each day to improve our system and further protect 
the rights of clean athletes. Specifically, we are focused on 
increasing the number of no-advance-notice tests that we perform. We 
are also seeking to improve our ability to systematically identify and 
sanction those athletes and other individuals who are engaged in the 
effort to create designer substances or otherwise gain an advantage 
over athletes who are competing clean. To this end, we continue to work 
with the Department of Justice and the United States Attorney for the 
Northern District of California in the ongoing investigation into the 
BALCO doping conspiracy.
    The BALCO investigation has also highlighted the great lengths that 
some athletes will go to in an effort to obtain an unfair advantage 
through doping. The science of doping is constantly evolving and 
complex issues, including genetic enhancement, must be addressed. If 
USADA's efforts to uncover these sophisticated efforts to cheat, 
through comprehensive testing, research and education programs is to be 
successful then appropriate resources must continue to be allocated to 
the fight against doping.
    Since its inception in 2000, USADA has been funded through a 
combination of contractual payments from the United States Olympic 
Committee (USOC) and annual appropriations from Congress, ranging from 
$3 million in 2000 to $7.4 million in 2004.
    USADA appreciates the support of the USOC in this important 
struggle against doping in the Olympic movement. USADA is also 
extremely appreciative of the commitment that Congress has demonstrated 
to USADA over the last 5 years. The funds designated for USADA in 
Senate Bill 529 would provide much-needed fiscal stability for USADA 
and would significantly advance USADA's mission.
    As the Committee with jurisdiction over this important issue, I 
thank you again on behalf of USADA and all of America's athletes for 
your interest in and commitment to clean sport and ask that you approve 
the funding for USADA set forth in Senate Bill 529.
    Thank you for your time this morning.

    Senator McCain. Thank you very much.
    Ms. White, welcome.

         STATEMENT OF KELLI WHITE, FORMER U.S. ATHLETE

    Ms. White. Thank you very much. Mr. Chairman, esteemed 
Members of the Committee. I would like to say thank you very 
much for allowing me the opportunity to appear before you 
today. My name is Kelli White and I appear here today having 
made the regrettable mistake of using steroids and other 
performance-enhancing drugs during my athletic career.
    With my experience and knowledge regarding use of 
performance-enhancing drugs, I welcome the opportunity to 
assist in efforts to remove doping from sport. By way of 
background, I competed in track and field for most of my life, 
having begun at the age of 10. In my early teen years I began 
working with renowned coach Remy Korchemny, who would remain a 
significant figure in my life over the next decade and a half.
    Senator McCain. Out of curiosity, how did you--how were you 
matched up with him?
    Ms. White. He and I were training on the same track and he 
asked my father if I could train with him, and my dad said that 
was fine.
    Senator McCain. I see.
    Ms. White. I went on to compete collegiately and graduated 
from the University of Tennessee before turning professional in 
the year of 2000. In the year of 2000 I returned home to the 
San Francisco Bay area and began training full-time with Mr. 
Korchemny. Shortly thereafter, in December 2000, my coach 
introduced me to BALCO founder Victor Conte.
    Conte initially gave me a package containing both legal 
supplements as well as the substance later known as designer 
steroid THG. At the time I was unaware that anything I received 
from Mr. Conte was a prohibited performance-enhancing 
substance, as I was told by both my coach and Mr. Conte that 
the vial they had given me contained flaxseed oil.
    A few weeks later Mr. Conte admitted to me that the 
substance he had given me was indeed not flaxseed oil, but 
rather a prohibited substance that, if not taken properly, 
could yield a positive drug test. I immediately ceased using 
the liquid because at that time in my career I did not believe 
it was necessary to take performance-enhancing drugs to be 
competitive.
    I competed over the next 2 years without the use of any 
performance-enhancing substances, despite being constantly 
urged to do so. I was continuously being told that the usage of 
performance-enhancing substances was necessary to be 
competitive because everybody else was doing so.
    My 2002 season was very difficult. I struggled with 
injuries most of the year. I had a great deal of uncertainty 
regarding my status for the 2003 season and I did not want to 
miss any part of that year. I failed to make the 2003 world 
indoor team and was receiving more pressure to start a 
performance-enhancing drug regimen. My advisers were pointing 
to other performances of other athletes, saying that I needed 
to do what they were doing in order to compete on that level.
    In March of 2003, I made the choice that I will forever 
regret. I visited Mr. Conte at his lab, which was near my home, 
and we sat down and devised a program to utilize performance-
enhancing drugs in my training and competition. At that time I 
began taking EPO, the clear, which is known as THG, the cream, 
which is a testosterone, and stimulants. I remained on the 
program over the course of 4 months and with the help of Mr. 
Conte I was able to pass 17 drug tests, both in and out of 
competition, while utilizing these prohibited performance-
enhancing substances.
    In a relatively short time period, I had gone from being a 
very competitive sprinter to being the fastest woman in the 
world. In June of 2003, I captured both the 100 and 200 meter 
United States championships, and followed that by winning the 
same events in the world championships in August in Paris.
    Although I crossed the finish line first in all those 
events, I knew in my heart it was accomplished partially 
because of the other line I had crossed. Instead of what should 
have been the high point of my career and a tremendous 
accomplishment in my life, I was ashamed of the choices I had 
made. In addition to enhancing my performance on the track, 
there were other physical effects I encountered while taking 
this mix of substances. My blood pressure was elevated. I also 
experienced an acne problem, increased menstrual cycle, and a 
slight vocal cord problem.
    The first and only failed drug test I experienced was 
following the world championship meet in Paris, when a 
stimulant known as modafinil was discovered in my urine sample. 
But the penalty for that substance would not even have been a 
suspension from track and field.
    A few weeks after the world championships, the FBI and 
other law enforcement agencies raided the BALCO laboratory. A 
few months later I admitted to the United States Anti-Doping 
Agency officials what I had done, as I outlined for you today. 
I received a 2-year ban from competition for my actions as well 
as a loss of results from my previous 4 years of competition. I 
also agreed to assist USADA in its mission to clean up sport 
and now offer to be of service to this Committee in any way you 
see fit.
    I believe athletes who use performance-enhancing drugs are 
hurting themselves, cheating the public, and betraying our 
youth. A performance-enhancing drug user trades his or her 
overall health, wellbeing, and integrity for a shot at fame and 
fortune. I believe it is important that you understand the 
reasons I made the choice to in essence cheat. I strongly 
believe that the use of steroids and other prohibited 
performance-enhancing drugs are wrong and there is no place for 
such use in sports.
    However, athletes who have made that choice are not 
necessarily bad people. In my own situation, there were many 
factors contributing to the very poor decision I made, which 
included the influence of a long-time trusted coach. But most 
importantly, I began using these substances not to give me an 
advantage, but because I had become convinced I needed them, I 
needed to use them, to level the playing field with my 
competitors.
    It is a very troubling situation to have trained to compete 
in a sport at the highest level, but feel those with which you 
are competing have an unfair advantage. I make neither an 
excuse nor justification for my horrible choice. I merely hope 
to lend understanding to this Committee as to how someone who 
loved her sport and trained cleanly for most of her life got 
involved in this awful abuse.
    My attorney Jerrold Colton and I have worked with assisting 
USADA in its efforts and we believe this Committee should 
further support USADA as the fight is a very difficult one. 
Being mindful that my use of steroids and other performance-
enhancing drugs was not detected through the extensive testing 
I received, USADA needs the resources to go further in its 
fight to detect the people who are breaking the rules. The 
BALCO scandal may not have been discovered without a 
competitor's coach anonymously sending a syringe of THG to 
USADA testers, which ultimately led to the discovery of this 
previously unknown steroid.
    Although I have been troubled by the disparity of the 
penalties facing track athletes versus other sports, I am 
mindful we are not protected by a players association. I 
appreciate the many reasons why this Committee previously 
subpoenaed the BALCO documents pertaining only to the track and 
field athletes and turned them over to USADA, rather than the 
other sports, but would like to see more equal treatment of all 
sports.
    I also believe the roles of some national governing bodies 
involved in sports and the coaches which either assist in the 
wrongdoing or turn their backs on what they see must have 
responsibility, culpability, and penalty for their role in 
making sport unclean.
    The fight against drugs in sport is an extremely difficult 
battle. I am sorry that I cheated myself, my competitors, my 
sport, my family, and the public, and for the choices I made in 
the past. As athletes, we know that we are role models and I 
betrayed my responsibility as such. Please feel free to call on 
me to play any role I can in assisting your Committee, USADA, 
and anyone else you see fit in this very important matter. I 
hope in doing so I help the sport I love more by what I do off 
the track than anything I could have ever done on it.
    Thank you very much for your attention and for allowing me 
to appear here today.
    [The prepared statement of Ms. White follows:]

         Prepared Statement of Kelli White, Former U.S. Athlete
    Mr. Chairman, esteemed Members of the Committee, thank you very 
much for allowing me the opportunity to appear before this very 
prestigious group. My name is Kelli White, and I appear here today 
having made the regrettable mistake of using steroids and other 
performance enhancing drugs during my athletic career as a sprinter. 
With my experience and knowledge regarding use of performance enhancing 
drugs, I welcome the opportunity to assist in the efforts to remove 
doping from sport.
    By way of background, I competed in track and field for most of my 
life, having begun at the age of 10. In my early teen years, I began 
working with renowned coach Remi Korchemny, who would remain a 
significant figure in my life over the next decade and a half. I went 
on to compete collegiately and graduate from the University of 
Tennessee before turning professional in the year 2000. At that time, I 
returned home to the Bay area of California and began training full 
time with Mr. Korchemny.
    Shortly thereafter, in December 2000, my coach introduced me to 
BALCO founder Victor Conte. Conte initially gave me a package 
containing both legal supplements, as well as a substance which later 
became known as the clear or the designer steroid THG. At the time, I 
was unaware that anything I received from Mr. Conte was a prohibited 
performance enhancing substance as I was told by both my coach and Mr. 
Conte that the vial they had given me contained flaxseed oil. A few 
weeks later, Mr. Conte admitted to me that the substance he had given 
me was indeed not flaxseed oil, but rather a prohibited substance that 
if not taken properly, could yield a positive drug test. I immediately 
ceased using the liquid because at that time in my career I did not 
believe it was necessary to take performance enhancing drugs to be 
competitive. I competed over the next 2 years without the use of any 
performance enhancing substances despite being constantly urged to do 
so. I was continuously being told that the usage of performance 
enhancing substances were necessary to be competitive because everyone 
else was doing so.
    My 2002 season was very difficult, as I struggled with injuries for 
most of the year. I had a great deal of uncertainty regarding my status 
as I entered the 2003 season, and I did not want to miss it. I failed 
to make the 2003 Indoor World Team, and was receiving more pressure to 
start a performance enhancing drug regimen. My advisors were pointing 
to other performances of athletes, and saying I needed to do what they 
were doing in order to compete on that level.
    In March of 2003, I made a choice that I will forever regret. I 
visited Mr. Conte at his lab which was near my home, and we sat down 
and devised a program to utilize performance enhancing drugs in my 
training and competition. At that time, I began taking EPO, the clear 
(or THG), the cream and stimulants. I remained on this program over the 
course of 4 months, and with the help of Mr. Conte, I was able to pass 
17 drug tests both in and out of competition while utilizing these 
prohibited performance enhancing substances.
    In a relatively short time period, I had gone from being a very 
competitive sprinter to being the fastest woman in the world! In June 
2003, I captured both the 100 and 200-meter United States 
Championships, and followed that by winning the same events in the 
World Championships in August in Paris. Although I crossed the finish 
line first in all of those events, I knew in my heart it was 
accomplished partially because of the other line I had crossed.
    Instead of what should have been the high point of my career and a 
tremendous accomplishment in my life, I was ashamed of the choices I 
had made. In addition to enhancing my performance on the track, there 
were other physical effects I encountered while taking this mix of 
substances. My blood pressure was elevated, and I also experienced an 
acne problem, increased menstrual cycle and slight vocal chord trouble. 
The first and only failed drug test I experienced was following the 
World Championship meet in Paris when a stimulant known as Modafinil 
was discovered in my urine sample, but the penalty for that substance 
would not have been even a suspension from track and field.
    A few weeks after the World Championships, the FBI and other law 
enforcement agencies raided the BALCO Laboratory. A few months later, I 
admitted to the United States Anti-Doping Agency (USADA) officials what 
I had done as I have outlined for you today. I received a 2-year ban 
from competition for my actions, as well as lost all of the results 
from my previous 4 years of competition. I also agreed to assist USADA 
in its mission to clean up sport, and now offer to be of service to 
this Committee in any way you see fit. I believe athletes who use 
performance-enhancing drugs are hurting themselves, cheating the public 
and betraying our youth. A performance-enhancing drug user trades his 
or her overall health, well-being and integrity for a shot at fame and 
fortune.
    I believe it is important that you understand the reasons I made 
the choice to, in essence, cheat. I strongly believe that the use of 
steroids and other prohibited performance enhancing drugs are wrong, 
and that there is no place for such use in sports. However, athletes 
whom have made that choice are not necessarily bad people. In my own 
situation, there were many factors contributing to the very poor 
decision I made which included the influence of a long-time trusted 
coach. But most importantly, I began using these substances not to give 
me an advantage, but because I had become convinced I needed to use 
them to level the playing field with my competitors. It is a very 
troubling situation when you have trained to compete in a sport at the 
highest level, but feel those with which you are competing have an 
unfair advantage. I make neither any excuse nor justification for my 
horrible choice. I merely hope to lend some understanding to this 
Committee as to how someone who loved her sport and trained cleanly for 
most of her life got involved in this awful abuse.
    My attorney, Jerrold Colton, and I have worked with assisting USADA 
in its efforts, and we believe this Committee should further support 
USADA as the fight is a very difficult one. Being mindful that my use 
of steroids and other performance-enhancing drugs was not detected 
through the extensive testing I received, USADA needs the resources to 
go further in its fight to detect the people who are breaking the 
rules. The BALCO scandal may not have been discovered without a 
competitor's coach anonymously sending a syringe of THG to the USADA 
testers which ultimately led to the discovery of this heretofore 
unknown steroid.
    Although I have been troubled by the disparity of the penalties 
facing track athletes versus other sports, I am mindful we are not 
protected by a players' association. I appreciate the many reasons why 
this Committee previously subpoenaed the BALCO documents pertaining 
only to the track and field athletes and turned them over to USADA 
rather than the other sports, but would like to see a more equal 
treatment of all sports. I also believe the roles of some national 
governing bodies involved in sports and the coaches which either assist 
in the wrongdoing or turn their backs on what they see must have some 
responsibility, culpability and penalty for their role in making sport 
unclean. The fight against drugs in sports is an extremely difficult 
battle. I am sorry that I cheated myself, my competitors, my sport, my 
family and the public for the choices I made in the past. As athletes, 
we know we are role models, and I betrayed my responsibility as such. 
Please feel free to call on me to play any role I can in assisting your 
Committee, USADA and anyone else you see fit in this very important 
matter. I hope in doing so, I help the sport I love more by what I do 
off the track, than anything I could have ever done on it. Thank you 
very much for your kind attention and for allowing me to appear here 
today.

    Senator McCain. Thank you very much, Ms. White, and we are 
very appreciative that you would come and share your 
experiences with us. We thank you.
    Mr. Blake, welcome.

    STATEMENT OF ROGER BLAKE, ASSISTANT EXECUTIVE DIRECTOR, 
             CALIFORNIA INTERSCHOLASTIC FEDERATION

    Mr. Blake. Thank you, Mr. Chairman. Thank you for the 
opportunity to speak to you today. My name is Roger Blake and I 
serve as the Assistant Executive Director of the California 
Interscholastic Federation, the governing body of high school 
sports in California. We are the largest state association in 
the Nation, with 1,400 high schools and 1.7 million students. I 
have also been a long-time high school teacher, coach, athletic 
director, and school administrator.
    In my role as the Assistant Executive Director of the CIF, 
I have been given the responsibility of ensuring that our 
schools and our governing bodies were given enough information 
regarding steroids and performance-enhancing substances to make 
an informed decision. Three weeks ago the CIF made national 
headlines when the representatives of our schools voted 
unanimously to pass three proposals that we believe are key 
fundamentals to slowing down and ultimately eliminating the use 
of these dangerous drugs in our schools.
    But we would not be where we are today without the 
assistance of USADA, particularly Dr. Catlin, Dr. Gary Green, 
and Mr. Richard Young. Last fall the CIF in conjunction with 
the demand reduction program of the U.S. Drug Enforcement 
Administration, sponsored a steroid summit in Los Angeles. 
Deputy Director Scott Burns of the ONDCP spoke and Dr. Catlin 
was one of our key speakers. What we learned that day, that the 
time has come that we too at the high school level are facing 
the same issues and the same dilemmas that face professional 
sports and our Olympic athletes, and that we needed to act 
immediately.
    We also came to realize that the science, the technology, 
and most importantly the marketing of these products to the 
user to get bigger, faster, and stronger just by taking this 
pill or injecting this fluid is an explosive combination. At 
the high school level, studies have shown that the No. 1 reason 
that kids play sports is because it is fun. But unfortunately 
in our society today, the winning at all costs mentality, more 
and more young people are turning to steroids and performance-
enhancing drugs to help give them the edge.
    Statistics tell us that just over 7 million high school 
students participate in sports, but only 1 percent of those 
athletes will receive that athletic scholarship to college. The 
competition for those few athletic scholarships is fierce. If 
we are truly going to make the difference, make a difference in 
the lives of millions of kids and young adults, then we must 
all get on the same page. We must speak a common language and 
send a united message that the illegal use of steroids and 
performance-enhancers is cheating and should not and will not 
be tolerated.
    We cannot afford to be naive about this subject. The 
marketing of these products is targeting our kids. Recently a 
California high school athletic director called me and she 
directed me to her daughter's youth team basketball web page. 
At the bottom of this web page were two ads, one for muscle-
building nutritional supplements and the other, HGH for 
athletes. This was on a web page that is targeting young girls 
grades 3 through 12.
    We must educate our parents, students, and coaches to the 
risks, dangers, and the warning signs. The CIF this spring 
developed a CD-ROM that we sent out to our 1,400 member schools 
with a PowerPoint presentation with the information so the 
coaches and school officials could distribute that information 
to parents and kids. But as the science and technology will 
continue to advance, the CIF and state associations like us are 
going to look to USADA for help so that we can continue to 
inform our stakeholders.
    At the high school and the youth level, we must demand that 
coaches are qualified and trained. In the CIF we strongly 
believe that coaches are teachers first. Just as we would want 
in every classroom a qualified and certified teacher, we must 
hold coaches to the same level. Without a doubt, a student 
athlete probably spends more time in the presence of their 
coach than with any other individual, with perhaps the 
exception of their parents or a peer.
    But these can only be the first steps. Testing at the high 
school level will be venturing into the unknown frontier, as we 
do not even know at the high school level what steroids or 
performance-enhancers we should advise schools to be testing 
for. The banned substance list from USADA and the NCAA, this is 
a foreign language, one that we do not understand and we do not 
read.
    We have been quoted prices for testing kits for student 
athletes that range from $350 to as little as $25. What is 
reasonable? What do we tell our member schools? State 
associations are going to need the help of USADA when our 
schools move into the testing era.
    The marketing of performance-enhancing substances is a 
multibillion dollar industry and the high schools of the 
Nation--and I can speak specifically for California--are going 
to desperately need the help and guidance of USADA as we move 
into this new era that has now reached down to the high school 
and youth sports level.
    In closing, I would like to thank you for allowing me the 
opportunity to speak today, but also urge you to consider 
increasing the scope of the educational mission of USADA and 
the funding that increasing that scope will entail.
    Thank you very much.
    [The prepared statement of Mr. Blake follows:]

   Prepared Statement of Roger Blake, Assistant Executive Director, 
                 California Interscholastic Federation
    Mr. Chairman and the distinguished Members of the Committee, thank 
you for the opportunity to testify today. My name is Roger Blake and I 
serve as the Assistant Executive Director of the California 
Interscholastic Federation (CIF), the governing body for high school 
sports for California. We are the largest state association in the 
nation with almost 1,400 high schools and 1.7 million students. I have 
also been a long time high school teacher, coach, athletic director, 
and dean and district office administrator.
    In my role as the Assistant Executive Director of the CIF, I have 
been given the responsibility for ensuring our schools and governance 
bodies were given enough information regarding steroids and performance 
enhancing substances to make an informed decision. Three weeks ago, the 
CIF made national headlines when the representatives of our schools 
voted unanimously to pass three proposals that we believe are 
fundamental keys to slowing down and ultimately eliminating the use of 
these dangerous drugs in our schools, but we would not be where we are 
today without the assistance and USADA, particularly Dr. Catlin, Dr. 
Gary Green and Mr. Richard Young.
    Last fall, the CIF in conjunction with the Demand Reduction Program 
of the U.S. Drug Enforcement Administration sponsored a ``Steroid 
Summit'' in Los Angeles. Deputy Director Scott Burns of the ONDCP spoke 
and Dr. Catlin was one of our key speakers. What we learned that day 
was that the time has come that we, too, are facing the same issues and 
dilemmas that face professional sports and our Olympic athletes and 
that we needed to act immediately.
    We also came to realize that as the science, the technology and 
most importantly the marketing of these products that promise the user 
to get bigger, faster and stronger just by taking this pill or 
injecting fluid is an explosive combination. At the high school level, 
studies have shown that the number one reason kids play sports is 
because it is fun, but unfortunately in our society where the winning 
at all cost mentality prevails, more and more young people are turning 
to steroids and performance enhancing drugs to help ``give them the 
edge.''
    Statistics tell us that over 7 million students participate in high 
school sports and that just over one percent of those athletes will 
receive an athlete scholarship to college, yet the pressure and the 
competition for those few athlete scholarships is fierce.
    If we are truly going to make a difference in the lives of millions 
of kids and young adults, then we must all get on the same page. We 
must all speak a common language and send a united message that the 
illegal use of steroids and performance enhancers is cheating and 
should not and will not be tolerated.
    We cannot not afford to be naive about this subject, the marketing 
of these products is targeting our kids. A California high school 
athletic director whose young daughter plays youth basketball recently 
called and directed me to the teams' web site. At the bottom of their 
web page were two advertisements, one for ``muscle building nutrition'' 
supplements and the other stating ``HGH for Athletes.'' And this on a 
web page that is for young girls in grades 3 through 12 in the San 
Francisco Bay Area.
    We must educate our parents, students and coaches to the risks, 
dangers and warning signs. The CIF has developed and sent to all of our 
member schools this CD-Rom that contains a PowerPoint presentation so 
that school officials and coaches could share this information with 
their players and parents. But as the science and technology continues 
to advance, we will look to groups such as USADA to help us so that we 
can continue to inform our stakeholders.
    At the high school and youth level, we must also demand that 
coaches are qualified and trained. In the CIF we believe strongly that 
coaches are teachers first and just as we would want in every classroom 
a qualified and certified teacher--the same should hold true for 
coaches. Without a doubt a student athlete probably spends more time in 
the presence of their coach than any other individual with the 
exception of their parents and peers.
    But these can be only the first steps; Testing at the high school 
level will be venturing into the unknown frontier as we do not even 
know what steroids and performance enhancers we should advise schools 
to test for and the banned substance lists by USADA and the NCAA are a 
foreign language that high school coaches do not speak or recognize. We 
have been quoted prices ranging from $25 dollars to hundreds of dollars 
per test screening. What is reasonable? What do we tell our schools? 
State Associations will need the help of USADA when and if schools 
implement testing programs. The marketing of performance enhancing 
substances is a multi-billion dollar industry, the high schools of the 
nation, and I can speak specifically for California are going to 
desperately need the help and guidance of the USADA as we move into 
this new era that has now reached down to the high school and youth 
sports level.
    In closing, I would like to thank the Committee for this 
opportunity to speak before you and to urge you to consider increasing 
the scope of the mission of USADA and the funding that increasing that 
scope would entail. Thank you.

    Senator McCain. Thank you very much, Mr. Blake.
    Dr. Catlin, welcome back.

        STATEMENT OF DON H. CATLIN, M.D., PROFESSOR OF 
           MOLECULAR AND MEDICAL PHARMACOLOGY, UCLA 
                         MEDICAL SCHOOL

    Dr. Catlin. Thank you very much, Senator McCain. It is a 
pleasure to be here and an honor. I am Don Catlin. I am a 
professor of molecular and medical pharmacology at UCLA and I 
am Director of the UCLA Olympic Analytical Laboratory, the only 
laboratory in the United States currently accredited for sports 
doping control by WADA, the World Anti-Doping Agency. I have an 
M.D. degree from the University of Rochester and my specialty 
is internal medicine. I founded the Olympic Laboratory in 1982 
and have been on numerous international medical commissions.
    My laboratory serves USADA as a primary client. It also 
serves the NCAA, the Minor League program for baseball and the 
National Football League, and several smaller clients.
    You may think that testing is wonderful and great. 
Unfortunately, it is far from being really perfect. Athletes 
determined to cheat have little trouble beating the test and 
there are many doctors ready and willing to tell them how to do 
it.
    Bill Llewellyn, a well-known underground chemist, stated in 
ESPN Magazine, quote: ``There are more than 500 steroids in 
this book''--and he waved the book--and he said, ``All the drug 
tests in the world can maybe find 50.'' That remains true 
today. That is why research plays such a vital role in the 
anti-doping effort.
    My lab has taken in several grants from USADA, including a 
grant to improve EPO testing, a vital area, and a grant to 
improve the testing for testosterone. These grants have 
resulted in many publications and substantial advances in our 
ability to detect these drugs. That type of research, however, 
is inadequate if a serious effort at eliminating drug use from 
sport is to be accomplished. The most difficult problems have 
not yet been solved.
    For example, there is no effective test for growth hormone 
today, after 10 years of work. Athletes determined to beat the 
system are still able to keep ahead. As the BALCO investigation 
has brought to light, these athletes and their gurus are well 
funded and they have resources. With the paltry amount of 
funding currently available, anti-doping research really does 
not stand a chance.
    Several success stories will make this point. You are all 
aware of THG. Well, in fact USADA had the wisdom to give us a 
grant prior to the discovery of THG to do work on any project 
that came along. It just happened that the first project that 
came along was the syringe that the coach turned in to USADA. 
We had $140,000 of direct costs and we were ready to go. We had 
the staff and it took a few weeks before we were able to get 
the structure of THG. We did not have to apply for a grant. We 
were all ready and willing to go.
    After we had identified it, it took another month to 
develop a test. But it is important to recognize that THG came 
to USADA and was given to us. We were not out there finding it 
like we should be. We need to find these drugs before athletes 
start using them.
    Two models of success that most resemble the type of 
research that should be going on all the time are darbepoetin 
and norbolethone. Darbepoetin is an improved form of EPO. We 
have known it was coming for years. We know it is going to 
replace EPO, and late in 2000 it was actually approved by the 
FDA, and it was launched just before the Salt Lake City games. 
We read in the paper that people were kind of laughing at us 
because we would not be able to detect it; it was too new.
    Well, we had done some homework and we were prepared for 
it, and in fact we caught three athletes who won a total of 
eight medals at the Salt Lake City games.
    There are countless other pharmaceuticals that come to the 
market every year. Many of them do enhance performance and may 
be undetectable by current methods. One of the cardinal rules 
of drugs in sport is that if the drug might work it will be 
used until its rightful place in the cheater's armamentarium is 
known. The lesson learned from this is that an effective anti-
doping research program must be flexible enough to immediately 
respond when such pharmaceuticals hit the market.
    Another example is norbolethone, a steroid that was 
actually in development 40 years ago, but it was abandoned 
because it was too toxic. None of the labs were looking for it. 
We did not know it existed. But then one day some very clever 
scientists in my lab noticed something peculiar about a sample. 
Eventually we narrowed it down and, sure enough, we found 
norbolethone 40 years after it was put on the shelf.
    Ultimately we learned quite a bit about norbolethone. We 
called a positive and soon the underground e-mails were 
explaining that we had already found it and that anybody who 
was taking it ought to lay off. No other cases of norbolethone 
have ever been found. We think it was placed in service around 
the time of the Sydney games in 2000. This dramatic 
illustration underlines the importance that we keep these 
projects confidential as well as highly scientific.
    These stories should make it clear to everyone exactly what 
we are up against. Athletes that cheat have sophisticated 
advisers and chemists. These underground chemists do not have 
to meet any FDA regulations. They have extraordinary resources. 
We cannot fight them effectively using the system and resources 
that are in place.
    What is needed is long-term substantial funding so that 
teams of scientists with decades of experience in anti-doping 
can work to develop new tests, keep up with the new drugs, 
think like dopers, and have tests ready to go when they come 
out.
    In May of 2003, a bill was introduced in the Senate that 
would have helped address these very issues, S. 1002, the 
Athletic Performance-Enhancing Drug Research and Detection Act. 
That bill would have provided the much-needed, long-term, well 
funded research to the labs that have extensive experience in 
anti-doping. Unfortunately, that bill never got off the ground.
    It is also vital to keep the work private and secret. As 
the cases of norbolethone and THG both teach us, as soon as 
athletes know what designer drugs are detectable they stop 
instantly and move on to something else. Remember the words of 
Llewellyn waving the book: ``There are 500 steroids in here.''
    As I mentioned at the beginning, the kind of research 
currently funded by USADA is a necessary part of the anti-
doping effort. It keeps labs worldwide up to date on their 
methods. It is, unfortunately, completely inadequate to keep up 
with cheaters. If you want to seriously address drugs in sport, 
then a long-term, well-funded, flexible and confidential 
research program is what is needed.
    To help this fight, I have recently established the Anti-
Doping Research Institute. Our efforts will focus on many of 
these areas I have outlined for you. It is one small step. 
Without adequate funding for USADA, independent anti-doping 
efforts are doomed to always be behind the cheaters.
    Thank you.
    [The prepared statement of Dr. Catlin follows:]

 Prepared Statement of Don H. Catlin, M.D., Professor of Molecular and 
               Medical Pharmacology, UCLA Medical School
    My name is Don Catlin. I am a Professor of Molecular and Medical 
Pharmacology at the University of California at Los Angeles Medical 
School and the Director of the UCLA Olympic Analytical Laboratory, the 
only lab in the U.S. accredited for sports doping control by WADA, the 
World Anti-Doping Agency. I have an M.D. degree from the University of 
Rochester and my specialty is Internal Medicine. I founded the UCLA 
Olympic Lab in 1982 and have been on the International Olympic 
Committee Medical Commission for many years, contributing expertise on 
scientific policy, medical issues, and laboratory methods. I have 
served on numerous national and international committees concerned with 
drugs in sports.
    You may think testing is great, but it is far from perfect. 
Athletes determined to cheat have little trouble beating the test . . . 
and there are legions of doctors telling them how to do it. Bill 
Llewellyn, a well-known underground chemist, stated in ESPN magazine 
``There are more than 500 steroids in here'' he says, flipping [a 
private book he keeps] to make his point. ``All the drug tests in the 
world can maybe find 50.'' That remains true today. This is why 
research plays such a vital role in the anti-doping effort. My lab has 
taken in several grants from USADA, including a grant to dramatically 
improve urine testing for EPO, a blood booster, and a grant to improve 
carbon isotope ratio, or CIR, analysis. The grants resulted in 
substantial advances in our ability to detect prohibited drugs.
    That type of research, however, is inadequate if a serious effort 
at eliminating drug use in sports is to be accomplished. The most 
difficult problems have still not been solved. For example, there is no 
effective test for growth hormone today. Athletes determined to beat 
the system are still able to keep ahead of the game. As the BALCO 
investigation has brought to light, these athletes have sophisticated 
resources and are well funded. With the paltry amount of funding 
currently available, anti-doping research does not stand a chance. 
Several success stories will help illustrate this point.
    All of you are aware of designer steroid THG. USADA provided my lab 
with approximately $140,000 in direct costs to defray the costs of 
identifying an unknown substance in a used syringe. This money was only 
available because USADA had given my lab a small unrestricted grant to 
provide us some flexibility--only a few weeks before the syringe was 
turned over to USADA. Thus we did not have to apply for a grant to 
determine the contents of the syringe--a process that takes months--we 
were ready to go. It took our team of scientists--a team that 
represents over a century of total years of experience in anti-doping--
one month to identify it and another six weeks to develop a test. It's 
important to remember this research was done on a substance brought to 
us. In other words we were not out looking for designer steroids--it 
just came to us. If it were not for the unidentified coach bringing 
USADA the syringe, it is possible that THG would still be in wide use 
today. We need to find these drugs before athletes start using them.
    Two models of success that most resemble the type of research that 
should be going on all the time are darbepoetin and norbolethone. 
Darbepoetin is an improved form of EPO. Late in 2001 just before the 
Salt Lake Olympic Games opened, it was approved for medical use by the 
FDA. The product was launched approximately three months prior to the 
Games. Media publications before the Games had warned of its likely use 
because it was ``undetectable.'' Our lab, however, had done the 
necessary work to obtain reference standards required to report 
potential positive cases. Our insight was correct; it was in use and 
because we came prepared, three athletes who had won a total of eight 
medals were all caught as darbepoetin users. There are countless other 
pharmaceuticals that come to the market every year. Many of them are 
performance enhancing drugs that may be undetectable by the methods 
currently employed world wide in anti-doping. One of the cardinal rules 
of drugs in sport is that if the drug might work it will be used until 
its place in the cheater's armamentarium is known. The lesson learned 
from this is that an effective anti-doping research program must be 
flexible enough to immediately respond when such pharmaceuticals hit 
the market.
    Another example is norbolethone--a steroid that was abandoned by 
the pharmaceutical industry before it ever made it to market over 40 
years ago. It was not looked for in the normal steroid test used by all 
anti-doping labs world-wide. In this way it was essentially like THG--
an unknown and undetectable steroid. Some very clever scientists at my 
lab noticed something peculiar about a sample. After review by our 
team, we all agreed something was there and we set out to determine 
what it was. Ultimately we determined its structure and began 
monitoring it in our routine screen. Although this was not known at the 
time, it did not take long after we reported a norbolethone positive 
for e-mails to circulate among the underground chemists informing 
cheating athletes that my lab was on to them. Just as with THG, it is 
now part of the testing process world wide, but no other case of 
norbolethone use has ever been found. This dramatic illustration 
underlines the importance of confidentiality.
    These stories should make clear to everyone exactly what we are up 
against. The athletes that cheat have sophisticated advisors and 
chemists. These underground chemists do not have to meet FDA 
regulations. They also have extraordinary resources. We cannot fight 
them effectively using the system and resources that are in place. What 
is needed is long-term, substantial funding so that teams of scientists 
with decades of experience in anti-doping (1) can work, sometimes with 
drug companies, to develop tests for new pharmaceuticals before they 
are even available to the public; and (2) can spend the time thinking 
like the dopers and develop tests for these designer drugs before 
athletes start using them. In May of 2003 a bill was introduced in the 
Senate that would have helped address these very issues, S. 1002--the 
``Athletic Performance-Enhancing Drugs Research and Detection Act.'' 
That bill would have provided the much-needed long term, well-funded 
research to the labs that have extensive experience in anti-doping. 
Unfortunately that bill never got off the ground.
    It is also vital to keep the work secret. As the cases of 
norbolethone and THG both teach us, as soon as the athletes know that 
the designer drug they are using is detectable they stop using that 
particular drug and move on to something else. ( Remember the words of 
Llewellyn--``there are more than 500 steroids in here.'' )
    As I mentioned at the beginning, the kind of research currently 
funded by USADA is a necessary part of the anti-doping effort. It keeps 
labs world wide up to date on their testing methods. It is, 
unfortunately, completely inadequate to keep up with the cheaters. If 
you want to seriously address drugs in sport then long term, well-
funded, flexible and confidential research is what is needed.
    To help this fight, I have recently established the Anti-Doping 
Research Institute (ADR). Our efforts will focus on many of these areas 
I have outlined for you today. But it is just one small step. Without 
adequate funding and independence, anti-doping efforts are doomed to 
always be behind the cheaters.

    Senator McCain. Thank you very much, and I want to thank 
the witnesses for being here.
    I guess one of the simple questions is, how do you keep up? 
Every witness just about talks about the fact that there are 
many substances that are being developed all the time to 
enhance performance. How do you keep up, Mr. Madden?
    Mr. Madden. Senator, I would agree with Dr. Catlin. We have 
got a monstrous job here. We are contributing $2 million a year 
to research on average. The World Anti-Doping Agency I believe 
in the last few years has been in the $2 to $3 million range. 
Around the world there is not much beyond that, a little in 
Australia, a little here and there.
    I would guess, the experts have told me--I do not know, 
Don--we need a good $15 million out there per year to do the 
research. I will tell you that since the BALCO investigation 
began--and the U.S. Attorney's investigation was some 10 months 
ahead of anything we found out about with the syringe--that we 
have received a constant stream of information from athletes, 
coaches, and athletes' support personnel directing us in the 
right direction to followup leads and investigate cases. So the 
good news is the clean athletes want to participate in our 
program and they are participating two ways: one, by testing; 
but the other is by providing us with information we can act 
on.
    But I am sure we need a minimum of $15 to $20 million in 
the research area to get ahead of the game.
    Senator McCain. Dr. Catlin, do you have anything to add to 
that?
    Dr. Catlin. Part of the issue is to be able to recruit 
really good scientists and maintain them and keep them. Small 
grants that last for a couple years will not do that. A top-
level scientist is looking for a job in perpetuity and they 
take about $250,000 a year just to maintain them and to pay 
them and to get them with supplies. So we need to have people 
like that who are working and will come. We need to attract 
them. They are out there. They are just not working for us. We 
need to pull them in and get them really tuned in to this.
    I think--I know this can be done. We get really good people 
from time to time, but we cannot keep them because I only have 
funding for a year or two.
    Second, we need to be able to purchase really high-end 
equipment, equipment that costs $500,000 to $1,000,000 a year. 
That is expensive, but this is the kind of thing you need if 
you want to detect growth hormone and other things that are out 
there.
    Senator McCain. Thank you.
    Mr. Madden, several NFL players have been involved with 
BALCO and only an average of six players per season over the 
past three seasons have been suspended by the NFL for drug use. 
Do you believe that the NFL's testing program is rigid or 
adequate?
    Mr. Madden. I would say, Senator, it is the best program in 
the professional leagues by far. I would say that no drug 
program is perfect. I am sure USADA's could be improved in many 
ways. We are working together with the NFL and the new 
laboratory at Utah that we hope will open late this year or 
early next year. But it is the best the pro sports are 
offering, but we all need to improve our drug testing systems.
    Senator McCain. Marion Jones called USADA ``a secret 
kangaroo court.'' How do you respond to that?
    Mr. Madden. Well, we do not comment on athletes that--
whether we are investigating them or not, until we bring forth 
a case. Our procedures in regard to the legal aspects are 
foolproof. We have an A test, we have a B test, we have an 
independent review board that tells us to go forward, acting as 
a grand jury. The athletes then have a right to a hearing, a 
right to an appeal, a right to counsel, a right to cross-
examination. They have all the inherent rights within the 
United States justice system.
    We are very proud of the way we act. We are very proud of 
everything we do.
    Senator McCain. Ms. White, I want to thank you again for 
being here today. In your statement you say you were able to 
pass 17 drug tests both in and out of competition while 
utilizing prohibited performance-enhancing substances. Is it 
just that they were not testing for the substances you were 
using?
    Ms. White. Correct. At the time they did not have THG in 
their possession. And we also had different substances that 
were covering up the steroids that we were using also.
    Senator McCain. In your written testimony you made a very 
interesting statement. It was interesting to me. You say: ``But 
most importantly, I began using these substances, not to give 
me an advantage, but because I had become convinced I needed to 
use them to level the playing field with my competitors.''
    I infer from that that you believe your competitors were 
also using performance-enhancing substances. Is that correct?
    Ms. White. It is very sad. I can look at quite a few people 
and say that they are, they were doing the exact same thing 
that I was doing.
    Senator McCain. So basically, if you wanted to stay in the 
top level you had to do what at least you believed that your 
competitors were doing; is that correct?
    Ms. White. Correct.
    Senator McCain. That is kind of a sad commentary and I am 
sorry that you--that that may have been the case.
    You also say: ``I believe the roles of some national 
governing bodies involved in sports and the coaches which 
either assist in the wrongdoing or turn their backs on what 
they see must have some responsibility, culpability, and 
penalty for their role in making the sport unclean.'' Would you 
care to elaborate a little on that?
    Ms. White. I look at myself and for my actions I have been 
suspended from my sport for 2 years. But my coach continues to 
coach. Although he has been indicted in the BALCO case, he is 
still coaching at this time, which there is no effect to him. 
He still makes money.
    I believe that USA Track and Field has not helped the fight 
with USADA and the communication there I think is broken and 
they need to help also in this fight.
    Senator McCain. Mr. Scherr, it does not seem fair, as Ms. 
White pointed out, that the individual athlete tests positive, 
but the coach who bears some responsibility continues to coach 
and to receive money. Do you have a comment on that?
    Mr. Scherr. I believe that her position is absolutely 
correct. I think there are mechanisms, but we have not bridged 
that gap into pursuing those opportunities to penalize coaches, 
doctors, trainers, or others who surround the athletes who 
might encourage the cheating, and I think those penalties need 
to be looked at, they need to be imposed, and they need to be 
harsh.
    Senator McCain. Well, I hope that we would--that 
particularly the Olympics, because of the relationship between 
coaches and athletes, that they would look at the 
responsibility that coaches have as well as the athletes. I 
hope you would have a look at that, Mr. Scherr.
    Mr. Blake, you testified that 7 percent of pre-high school 
young women in America are using performance-enhancing drugs; 
is that correct?
    Mr. Blake. I believe that was his testimony [indicating].
    Senator McCain. Why would they be doing that?
    Mr. Blake. Well, there are two types. At the high school 
and youth sports level, surveys are showing two types of users 
of performance enhancers. One is the athlete looking to get 
that scholarship, to move to the next level, to get the edge. 
The other is the vanity user that we are starting to see now in 
society, of kids taking performance enhancers, not because they 
are athletes and in competition, but they want to look perfect. 
They want to have the perfect cut muscles, that model look that 
you see in a magazine.
    Senator McCain. Dr. Catlin, it seems to me that the 
overwhelming testimony here means that the lesson we should 
draw is not only that we need rigorous and enforced testing but 
also that it really matters who does the testing.
    Dr. Catlin. It does. We are up against it. We are the only 
lab today in the United States, and have been for 23 years. 
There is a reason for that. But our work is really not widely 
understood outside of the lab, unfortunately, the kinds of 
things we have to do, the kinds of tests. The documents that we 
have to pile up are huge.
    So when a Terry Madden and his group of attorneys go into 
court against an athlete, they have got a stack of papers like 
that [indicating] and we prepare all of that. But we are facing 
people out there who do not follow any rules. They do not have 
to go to the FDA and get THG approved. They just mix, mix up a 
batch of it, and they have figured out a way to do it so that 
we cannot detect it, at least at first.
    Once we finally get hold of the steroid and get our grip on 
it, then we can detect it, and then they stop and they go to 
something else. This goes on and on. I know how to do testing. 
I have been doing it for 23 years. I do not want to wake up in 
5 years with another THG. I want to put an end to it now and I 
think I know how to do it, and it can be done and it should be 
done.
    This is not a situation where you need 25 laboratories. You 
need very few labs, but ones who can focus more and more 
research on the problems.
    Senator McCain. Mr. Scherr, you mentioned that you 
supported increased funding for USADA in order to help have 
meaningful enforcement. Would you submit for the record a 
statement about how much money and what those uses would go to 
for us, please?
    Mr. Scherr. Yes, we can. We will submit that.
    Senator McCain. Ms. White, again, I noticed in your 
testimony that you said you began competitive track at the age 
of 10. How old were you when you started feeling these 
pressures? Were you in high school when you became aware that 
people were--that this use of performance-enhancing drugs was 
taking place?
    Ms. White. No, I was out of college by then, that is when I 
started really seeing the people around me, when I was 
professional.
    Senator McCain. I see. Well, again we thank you for being 
here today.
    I thank the witnesses. We will be introducing legislation 
with our friends on the House side today to hopefully address 
some of this issue. We thank you for being here and thank you 
for all you do.
    This hearing is adjourned.
    [Whereupon, at 10:57 a.m., the Committee was adjourned.]

                                  <all>

</pre></body></html>
